July 23, 2009


RICHARD J. BLANCAS
SENIOR PLANT MANAGER, OAKLAND PROCESSING AND DISTRIBUTION
   CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Oakland Processing and Distribution Center
         (Report Number NO-AR-09-007)

This report presents the results of our review of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Oakland, CA Processing and Distribution Center
(P&DC), located in the Pacific Area (Project Number 09XG017NO000). The Vice
President, Network Operations, requested this audit. Our objectives were to determine
if the PIVMS was functioning as intended and producing efficiency improvements. See
Appendix A for additional information about this audit.

Conclusion

Management at the Oakland P&DC did not always use the PIVMS as intended and
consequently has not yet realized all possible efficiency improvements. Although
management had identified opportunities to reduce vehicle equipment and reduced
workhours used in tow and forklift operations in fiscal year (FY) 2009, additional
opportunities exist for improvement. If the Oakland P&DC used the PIVMS as intended,
we estimate that management could save 38,000 workhours by the end of FY 2011,
with an economic impact of over $14.5 million in savings over 10 years.

Workhour and Overtime Trends

When the Oakland P&DC deployed PIVMS in April 2007, some efficiency improvements
were realized through a 22.1 percent reduction in overtime in tow and forklift operations.
However, from FY 2006 through 2008, Oakland P&DC tow and forklift workhours
increased by 8.5 percent. In addition, the number of equipment operators increased by
almost 13 percent, due to closure of the Oakland Air Mail Center (AMC) and the
Oakland International Service Facility (ISF) and the transfer of equipment operators to
the Oakland P&DC.

We also compared the Oakland P&DC to 43 P&DCs that had the PIVMS installed for at
least 1 year and found the Oakland P&DC did not achieve the level of improvement the
1
 The PIVMS consists of intelligent wireless devices installed on powered industrial vehicles and client-server
software for access control, utilization analysis, real-time location tracking, and many other functions.
Powered Industrial Vehicle Management System                          NO-AR-09-007
 at the Oakland Processing and Distribution Center


other sites attained. From FYs 2006 through 2008, the average site reduced tow and
forklift workhours by 3.8 percent, and decreased overtime by 38 percent.

Although management at the Oakland P&DC did not always use the PIVMS as
intended, we noted that during FY 2009, management improved supervision of tow and
forklift operations and used 7.4 percent less workhours and almost 17 percent less
overtime compared to year-to-date February of FY 2008. See Appendix B for our
detailed analysis of this issue.

Use of the PIVMS at the Oakland P&DC

The Oakland P&DC used the PIVMS to complete the Occupational Safety and Health
Administration (OSHA) checklist to identify employees involved in vehicle accidents and
to locate vehicles in the facility. However, they did not use the PIVMS to:

    •   Manage equipment operator workhours.

    •   Schedule preventive maintenance or ensure that maintenance was completed.

    •   Monitor vehicle inventory or battery usage.

    •   Identify opportunities to reduce vehicle inventory. Instead, management
        increased the number of powered industrial vehicles (PIVs) at the Oakland
        P&DC.

In addition, management occasionally bypassed some safety and security features of
the PIVMS. See Appendix B for our detailed analysis of this topic.

Causes

We concluded that all of the efficiency improvements from the PIVMS did not occur at
the Oakland P&DC due to several factors. We found:

    •   Management was not aware of any established national goals or requirements to
        use the PIVMS to increase operational efficiency.

    •   Management had no confidence in the accuracy of the system reports or design
        features.

    •   Employees and supervisors needing to use the system did not always receive
        training.




                                                     2
Powered Industrial Vehicle Management System                              NO-AR-09-007
 at the Oakland Processing and Distribution Center


Criteria

The President’s Commission on the U.S. Postal Service, July 31, 2003, recommends
that the mission of the Postal Service be “. . . . to provide high-quality, essential postal
services to all persons and communities by the most cost-effective and efficient means
possible at affordable and, where appropriate, uniform rates.”

Title 39, U.S.C. Part 1, Chapter 4, § 403, states “The Postal Service shall plan, develop,
promote, and provide adequate and efficient postal services at fair and reasonable rates
and fees.”

The Postal Accountability Enhancement Act of December 2006, P.L. 109-435, Title II
dated December 20, 2006, indicates “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Effect

By using the PIVMS as intended, the Postal Service could increase operational
efficiency at the Oakland P&DC. We estimated that management could reduce 38,000
mail processing workhours by the end of FY 2011, with an associated economic impact
of over $14.5 million present value dollars in savings occurring over 10 years. See
Appendix C.

Management’s Actions

Management was aware and supportive of the need to achieve an acceptable return-
on-investment from the PIVMS. During our audit, management began to hold refresher
training for equipment operators. We noted that during FY 2009, workhours and
overtime began to decrease in tow and forklift operations.. Management also
eliminated 18 equipment operator positions in FY 2009, and had recently completed an
analysis on workhour and inventory reductions.

At our exit conference on April 27, 2009, Oakland P&DC management committed to
improve efficiency, as well as, reduce equipment inventory by 49 vehicles. We noted
that specific PIVMS goals and targets had not been established at a national level and
we will address these issues in our capping report. We will also examine the cost
savings associated with vehicle reductions in our capping report.

To ensure the PIVMS at the Oakland P&DC functions as intended and produces
efficiency improvements, we recommend the Senior Plant Manager, Oakland P&DC:

1. Use the Powered Industrial Vehicle Management System to the fullest extent
   possible to manage operations and continue to improve mail processing efficiency
   by reducing 38,000 workhours in tow and forklift operations by FY 2011, with an




                                                     3
Powered Industrial Vehicle Management System                          NO-AR-09-007
 at the Oakland Processing and Distribution Center


    associated economic impact of over $14.5 million present value dollars in savings
    occurring over 10 years.

2. Reduce the number of powered industrial vehicles by 49 by the end of FY 2010.

3. Provide Powered Industrial Vehicle Management System training to all employees
   that need to use the system by postal Quarter 4, FY 2009.

Management’s Comments

Management generally agreed with the recommendations and is working to reduce
workhours. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. Management has taken
proactive action during our audit and is well under way with completing the actions
specified in the recommendations. For example, management has already reduced
43 PIVs and is aggressively reducing workhours. Management’s corrective actions
should resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We will report $14,598,866 in funds put to better use in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment




                                                     4
Powered Industrial Vehicle Management System             NO-AR-09-007
 at the Oakland Processing and Distribution Center



cc: Patrick R. Donahoe
    William P. Galligan
    Jordan M. Small
    Frank Neri
    Kim R. Fernandez
    Katherine S. Banks




                                                     5
Powered Industrial Vehicle Managemment System                             NO--AR-09-007
         akland Proces
 at the Oa            ssing and Disttribution Centter


                          APPEND
                               DIX A: ADD
                                        DITIONAL INFORMA
                                                       ATION
BACKG
    GROUND

The Oakkland P&DC           d in the Bayy-Valley Disstrict in the Pacific Are
                 C is located                                               ea. The ma
                                                                                     ap
below sh
       hows the Pacific
                P       Area Districts byy three-digit ZIP Code e.




The Oakkland P&DC  C processeed almost 2.3 billion firsst handling pieces (FH
                                                                            HP) and
used over 3 million workhourss in FY 2008. The Posstal Service   e owns the multiple-sto ory
      d P&DC, wh
Oakland            hich was deedicated in 1969. The  e Oakland P&DC
                                                                 P      imple
                                                                            emented the
PIVMS in
       i April 20007 at a proje
                              ected cost of
                                         o $710,600   0. The Posstal Servicee justified th
                                                                                         he
purchase stating it would:

    •   E
        Eliminate un
                   nauthorized
                             d use of PIV
                                        Vs.

    •   R
        Reduce injuries from unsafe opera
                                        ation of PIV
                                                   Vs.

    •   R
        Reduce dam
                 mage to ma
                          ail and equip
                                      pment from
                                               m unsafe op
                                                         peration of PIVs.
                                                                     P

    •   R
        Reduce worrkhours use
                            ed to transp
                                       port mail and equipment througho
                                                                      out the plan
                                                                                 nt.

    •   R
        Reduce the number of pieces of equipment
                                       e         n
                                                 needed to perform
                                                           p       thiss work.

    •   R
        Reduce the workhours needed to maintain th
                                                 he fleet of PIVs.
                                                             P



                                                        6
Powered Industrial Vehicle Management System                           NO-AR-09-007
 at the Oakland Processing and Distribution Center



This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc. of Hackensack, NJ, in January 2005 to produce and deploy the PIVMS.
The Postal Service started the program essentially as a pilot when it signed a $3.6
million contract with I.D. Systems, to implement a wireless asset management system
at 10 bulk mailing and distribution facilities across the country. As of March 2009, the
Postal Service placed orders for PIVMS deployment in 113 facilities. The total amount
funded for the PIVMS as of May 2008 was over $35 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Some of the major
system design features included:

    •   Two-way text messaging.

    •   Assurance of OSHA safety compliance by only allowing currently certified
        operators to logon and operate specified equipment.

    •   Increased safety and accountability by shutting down a vehicle after recording a
        significant impact.

    •   Measuring the amount of time that an operator is logged into a vehicle and the
        amount of time the vehicle is in motion.

    •   Location and tracking of vehicles within a plant.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the PIVMS was functioning as intended and
producing efficiency improvements. To accomplish these objectives, we observed mail
processing operations and analyzed volume and workhour trends at the Oakland
P&DC. The Oakland P&DC implemented the PIVMS before the end of FY 2007, so we
benchmarked the Oakland P&DC with sites that had implemented the PIVMS after
FY 2007. We also evaluated the utilization and capacity, staffing levels, and inventory
of PIVs at the Oakland P&DC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included the Web Enterprise Information System,
Web-based Complement Information System, and the Enterprise Data Warehouse
system. We did not test the validity of controls over these systems. However, we
checked the accuracy of the data by confirming our analysis and results with Postal
Service managers and from different data sources. In addition, we relied on U.S. Postal
Service Office of Inspector General (OIG) audits of Postal Service systems. An OIG




                                                     7
Powered Industrial Vehicle Management System                                         NO-AR-09-007
 at the Oakland Processing and Distribution Center


review of the Management Operating Data System concluded that the data in this
system was valid and reliable for the uses for which it is intended.2

We conducted this performance audit from February through July 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on April 27, 2009, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We have conducted three prior reviews and found that the three sites reviewed did not
always use the PIVMS as intended and consequently did not fully realize efficiency
improvements. Management agreed with our recommendations.

                                                                                            Monetary
               Report Title             Report Number          Final Report Date             Impact
      Powered Industrial Vehicle
      Management System at the
                                         NO-AR-08-007         September 15, 2008            $3,345,456
      Raleigh Processing and
      Distribution Center
      Powered Industrial Vehicle
      Management System at the
                                         NO-AR-08-010         September 23, 2008            $1,576,086
      Providence Processing and
      Distribution Center
      Powered Industrial Vehicle
      Management System at the
                                         NO-AR-09-001          December 3, 2008             $1,981,643
      Louisville Processing and
      Distribution Center




2
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                      8
Powered Industrial Vehicle Management System                        NO-AR-09-007
 at the Oakland Processing and Distribution Center


                             APPENDIX B: DETAILED ANALYSIS

Volume and Workhour Trends

We reviewed mail volume, workhour, productivity, and complement trends for the
Oakland P&DC from FYs 2006 through 2008. From FYs 2006 through 2008, FHP
volume at the Oakland P&DC decreased by 7.8 percent and mail processing (Function
1) workhours decreased by 14.2 percent. Consequently, overall mail processing
productivity increased by 7.4 percent.

From FYs 2006 through 2008, workhours used in tow and forklift operations at the
Oakland P&DC increased 8.5 percent and overtime used in these operations decreased
22.1 percent. In FY 2008, the Oakland P&DC used 6.6 percent of mail processing
workhours in tow and forklift operations. The number of equipment operators in FY
2008 increased by 12.5 percent compared to FY 2006. This increase was partly due to
closure of operations at the Oakland AMC and the Oakland ISF. When these facilities
closed, management transferred 10 equipment operators to the Oakland P&DC from
the Oakland ISF in May 2008 and two equipment operators from the Oakland AMC in
December 2006.

We reviewed volume, workhour, productivity, and complement trends for the P&DCs
that had the PIVMS installed before the end of FY 2007, so there was at least one
completed fiscal year of data. For the 43 sites meeting these criteria, we reviewed
volume, workhour, and productivity trends from FYs 2006 through 2008. During this
period, volume at these sites declined 1.37 percent and mail processing (Function 1)
workhours decreased 11.93 percent. Consequently, productivity increased almost 12
percent.

Comparing Oakland P&DC to these sites from FYs 2006 through 2008 shows that
Oakland P&DC tow and forklift workhours increased 8.5 percent, while the average site
decreased workhours in these operations by 3.8 percent. See Charts 1 and 2.




                                                     9
Powered Industrial Vehicle Management System                                                 NO-AR-09-007
 at the Oakland Processing and Distribution Center


                                  CHART 1: TOW AND FORKLIFTS WORKHOURS
                                  AT OAKLAND P&DC FYS 2006 THROUGH 2008

                                205,000 

                                200,000 

                                195,000 
                   WORKHOURS




                                190,000 

                                185,000 

                                180,000 

                                175,000 
                                              FY 2006          FY 2007                 FY 2008

               From FY 2006 to 2008, Oakland P&DC tow and forklift workhours
               increased by 8.5 percent.3

                                  CHART 2: TOW AND FORKLIFTS WORKHOURS
                                AT 43 P&DCS WITH PIVMS FYS 2006 THROUGH 2008

                                 4,700,000 
                                 4,600,000 
                                 4,500,000 
                                 4,400,000 
                    WORKHOURS




                                 4,300,000 
                                 4,200,000 
                                 4,100,000 
                                 4,000,000 
                                 3,900,000 
                                 3,800,000 
                                               FY 2006          FY 2007                FY 2008

               From FYs 2006 to 2008, tow and forklift workhours decreased by
               3.8 percent at the other 43 P&DCs with PIVMS.


3
    Source of the data used in Charts 1 through 4 was the Enterprise Data Warehouse.




                                                         10
Powered Industrial Vehicle Management System                                   NO-AR-09-007
 at the Oakland Processing and Distribution Center


We noted that during FY 2009, workhours and overtime used in tow and forklift
operations began to decrease in the Oakland P&DC. For example, they used 7.4
percent fewer workhours and almost 17 percent less overtime in these operations in
February 2009 compared to February 2008. See Charts 3 and 4.

           CHART 3: OAKLAND P&DC TOW AND FORKLIFT WORKHOURS
                     FEBRUARY 2008 AND FEBRUARY 2009

                           100,000
                            90,000
                            80,000
                            70,000
               WORKHOURS




                            60,000
                            50,000
                            40,000
                            30,000
                            20,000
                            10,000
                                 0
                                            FY 2008                 FY 2009
                                      Year To Date 2/28/08   Year To Date  2/28/09

            The Oakland P&DC used 7.4 percent fewer workhours in February
            2009 compared to February 2008.

             CHART 4: OAKLAND P&DC TOW AND FORKLIFT OVERTIME
                      FEBRUARY 2008 AND FEBRUARY 2009

                           16,000
                           14,000
                           12,000
                           10,000
               OVERTIME




                            8,000
                            6,000
                            4,000
                            2,000
                               0
                                            FY 2008                 FY 2009
                                     Year To Date  2/28/08   Year To Date  2/28/09

            The Oakland P&DC used almost 17 percent less overtime in
            February 2009 compared to February 2008.



                                                       11
Powered Industrial Vehicle Management System                                           NO-AR-09-007
 at the Oakland Processing and Distribution Center


Use of the PIVMS

The Oakland P&DC used the PIVMS to complete the OSHA checklist to identify
employees involved in vehicle accidents and to locate vehicles in the facility. However,
they did not always use the PIVMS to:

       •   Manage equipment operator workhours.

       •   Schedule preventive maintenance or ensure that maintenance was
           accomplished.

       •   Monitor vehicle inventory or battery usage.

       •   Identify opportunities to reduce vehicle inventory.

In addition, management occasionally bypassed some safety and security features.

Management of Equipment Operator Workhours

Management at the Oakland P&DC did not always use the operational features of the
PIVMS. For example, we reviewed the number of logon accesses to the PIVMS and
found that only nine out of the 83 mail processing managers and supervisors (10.8
percent) logged into the PIVMS from January 2 to February 19, 2009. We interviewed
supervisors and found the majority of them accessed the PIVMS only for tasks such as
starting vehicles for employees or locating vehicles. As of February 2009, only 33
percent of managers and supervisors and approximately 2.5 percent of powered
equipment operators had received PIVMS training.

We also found the majority of Oakland P&DC supervisors did not use the PIVMS
reports. The PIVMS reports allow management to monitor and measure vehicle
utilization attributes such as simultaneous vehicle usage, speed, distance traveled, idle
time, and travel time while carrying or pulling a load4 in order to assess productivity.
Management stated the reports were cumbersome, difficult to interpret, and difficult to
obtain; and that they were not always confident in the accuracy of the reports.

We found that PIVMS reports might not always be accurate. For example, we found
that, according to the Travel With Load reports, in FY 2008, the Oakland P&DC forklift
travel with load percentages was 12 percent and the tow truck travel with load
percentages was 7 percent.




4
    Travel With Load reports measure time traveled while carrying or pulling a load.




                                                            12
Powered Industrial Vehicle Management System                                               NO-AR-09-007
 at the Oakland Processing and Distribution Center


However, several factors might have contributed to the accuracy of the percentage
rates of the reports, such as.

    •   Not all vehicles in use were reporting data, so recorded loads were also
        inaccurate. For example, 14 vehicles showed “0” or near “0” percent travel with
        load for all of FY 2008.

    •   One vehicle not used to carry mail was incorrectly coded in the PIVMS as a load-
        bearing vehicle, which decreased the travel with load percentages.

    •   Management allowed employees to use more than one piece of equipment at a
        time, so they overstated login hours.

Consequently, the reported utilization rates may have been lower than actual utilization.

Maintaining Vehicle Equipment and Monitoring Battery Usage

Management at the Oakland P&DC did not use the PIVMS reports to schedule
preventive maintenance or ensure that unit personnel performed the maintenance.
Instead, management used the Electronic Maintenance Activity Reporting and
Scheduling System (eMARS) to schedule maintenance.5 The PIVMS maintenance tool
provides the ability to forecast, schedule, and process preventative maintenance
events. By using this tool, management could more effectively manage preventive
maintenance of vehicles.

In addition, management did not use the PIVMS battery management system to monitor
battery usage. The purpose of the PIVMS Battery/Charger Administration module is to
extend vehicle battery life and reduce battery inventory.6 See Illustration 1.




5
 We will address the use of eMARS instead of PIVMS in our capping report.
6
 Industrial batteries provide a maximum return on investment when they are discharged to appropriate levels during
operation and allowed to recharge and cool down for enough time during their charge cycles. I.D. Systems’ Fleet
Management System notifies the operator when the battery has been sufficiently discharged and can be replaced.
Electronic battery fobs to track battery usage were not installed on the PIV batteries at the Oakland P&DC.




                                                        13
Powered Industrial Vehicle Management System                                              NO-AR-09-007
 at the Oakland Processing and Distribution Center




      Illustration 1: Batteries did not include battery fobs, which should be located
      on top of the batteries.7




7
 The battery fob is used as the means of keeping track of the batteries. The Vehicle Asset Communicator reads the
battery fob identification code and sends information on the battery to the central computer server.




                                                       14
Powered Industrial Vehicle Management System                                              NO-AR-09-007
 at the Oakland Processing and Distribution Center


Management stated that space in the battery room was not sufficient to store all
batteries. Consequently, there were not always sufficiently charged batteries for the
vehicle inventory and they were sometimes used before being completely charged.
Using a battery that is not completely charged reduces battery life.

Vehicle Inventory Management

Management did not use the PIVMS to identify opportunities to make reductions in
inventory. Although management planned vehicle reductions when they implemented
the PIVMS at the Oakland P&DC in April 2007, vehicle inventory increased by 19 pieces
of equipment by March 2009.8

We found the maximum number of vehicles used simultaneously from April 2007
through January 2009 was 46, indicating a possible surplus of 49 vehicles. In addition,
the maximum number of powered equipment operators scheduled to work at any one
time was 30, also indicating there were more than enough vehicles for equipment
operators to use. During our observations, we noted that vehicles were often idle. See
Illustrations 3 and 4.




8
 This increase was due in part to the closure of operations at the Oakland AMC and the Oakland ISF and the
subsequent transfer of vehicle equipment to the Oakland P&DC.




                                                       15
Powered Industrial Vehicle Management System                             NO-AR-09-007
 at the Oakland Processing and Distribution Center




         Illustration 3: Idle forklifts at the Oakland P&DC on 3/2/2009 at 5:25 p.m.




       Illustration 4: Idle tow trucks at the Oakland P&DC on 3/4/2009 at 6:31 p.m.




                                                     16
Powered Industrial Vehicle Management System                          NO-AR-09-007
 at the Oakland Processing and Distribution Center


We also found unused equipment in the maintenance unit awaiting parts and repair.
See Illustration 5.




Illustration 5: Vehicles awaiting parts and repair in the maintenance workroom at the
Oakland P&DC on 3/3/2009 at 8:35 p.m.

During our audit, management stated they planned to reduce PIV equipment by 49
pieces. We will examine the costs associated with vehicle reductions in our capping
report.

Safety and Security Features

During our review at the Oakland P&DC, we did not observe unsafe driving practices or
accidents. In addition, we found that supervisors used the PIVMS to identify employees
that were involved in vehicle accidents. However, management at the Oakland P&DC
occasionally bypassed some of the PIVMS security features designed to ensure
compliance with OSHA.




                                                     17
Powered Industrial Vehicle Management System                             NO-AR-09-007
 at the Oakland Processing and Distribution Center


For example:

    •    One of the PIVMS safety design features only allows currently certified operators
         to logon and operate specified equipment. Oakland P&DC supervisors
         sometimes used master badges to start vehicles for operators.

    •    Another PIVMS safety design feature requires the operator to complete an
         electronic OSHA checklist within a prescribed time after logging on to the vehicle.
         We observed that most equipment operators completed the OSHA safety
         checklist at the start of their tour. See Illustration 6. However, operators
         sometimes asked a supervisor to bypass the system and start the vehicle.




        Illustration 6: Most employees used proper identification and the electronic
        OSHA checklist to start a vehicle.




                                                     18
Powered Industrial Vehicle Management System                                               NO-AR-09-007
 at the Oakland Processing and Distribution Center


             APPENDIX C: CALCULATION OF FUNDS PUT TO BETTER USE

By using the PIVMS as intended, we estimated that management could reduce 38,000
workhours by the end of FY 2011 based on the following factors:

    •   The Oakland P&DC’s FHP productivity in FY 2008 was 742 and was lower than
        the median FHP productivity of 851 for the other 43 sites using PIVMS. We used
        this median productivity to calculate earned hours9 for mail processing operations
        (Function 1).

    •   We determined the average percentage of hours used in tow and forklift
        operations as a percent of total Function 1 hours for the other sites using PIVMS.
        The average percentage of workhours used in tow and forklift operations is 6.21
        percent.

    •   The Oakland P&DC used 6.65 percent of earned Function 1 workhours in tow
        and forklift operations.

    •   We multiplied the 6.21 average percentage of hours used in tow and forklift
        operations by the calculated earned Function 1 hours for the Oakland P&DC of
        2,665,380. We determined that the number of tow and forklift hours that should
        be used (earned hours) by the Oakland P&DC is 164,839. We compared this
        earned hour calculation to the actual FY 2008 workhour usage in these
        operations of 202,485. This comparison revealed a difference of 37,646
        workhours, which represents the potential workhour savings. Oakland P&DC
        management agreed to reduce 38,000 workhours. This workhour savings has an
        associated economic impact of over $14.5 million (net present value) in savings
        over 10 years.

                   FUNDS PUT TO BETTER USE (WORKHOUR SAVINGS)

                                                                                TIMEFRAME
                                                                             10 FISCAL YEARS
                  Employee Category                      Workhour                Discounted
                      Impacted                           Reduction                Savings
                                                                                (Net Present
                                                                                   Value)
            Function 1 Mail Processing
                                                             38,000              $14,598,866
            Level 5 Mail Handler Hours




9
 Earned hours are the hours justified based on the number of workhours used by other sites for a given workload or
volume.




                                                        19
Powered Industrial Vehicle Management System                            NO-AR-09-007
 at the Oakland Processing and Distribution Center


NOTES

    •   We based the 38,000 workhour reduction on management’s plan to reduce
        workhours over a 2-year period, based on FY 2008 usage.

    •   We calculated cost avoidance using the savings in hours multiplied by the
        escalated labor rate over a 10-year period.

    •   We calculated the net present value using the November 28, 2008, discount rate
        of 3.5 percent over a 10-year period.

    •   We based labor rates on FY 2009 Actual Wage Rates for a level 05 (PS-05) mail
        handler.

    •   The yearly escalation factor is 1.8 percent, based on the Postal Service’s
        Decision Analysis Factors, effective November 28, 2008.




                                                     20
Powered Industrial Vehicle Management System              NO-AR-09-007
 at the Oakland Processing and Distribution Center


                           APPENDIX D: MANAGEMENT’S COMMENTS




                                                     21
Powered Industrial Vehicle Management System              NO-AR-09-007
 at the Oakland Processing and Distribution Center




                                                     22
Powered Industrial Vehicle Management System              NO-AR-09-007
 at the Oakland Processing and Distribution Center




                                                     23
